No:

In the
Supreme Court of the United States
OSCAR ARMANDO AVILA-JAIMES,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Oscar Armando Avila-Jaimes
Register Number # 44428-380
FCI Loretto
P.O. Box 1000
Cresson, PA 15940

QUESTIONS PRESENTED FOR REVIEW

1. Should a writ of certiorari be granted since the Fifth Circuit’s decision in
not remanding to the lower court was contrary to precedent of this court
which required an evidentiary hearing according to Title 28 U.S.C. § 2255.
2. Should a writ of certiorari be granted to determine if an audio
recording that is not part of the court file from a District Court’s
Magistrate hearing suffice to support this court’s standard in Strickland
v. Washington, 466 U.S. 668 (1984) or is more needed on the record.
3. Does an attorney’s lies to the court during change of plea hearing, that
are not part of the court file, per-se, be relied upon by to support a
Strickland v. Washington, 466 U.S. 668 (1984) decision or is more needed
on the record.
4. In light of this Court’s decision in Andrus v. Texas, 140 S. Ct. 1875
(2020), did counsel fail to prepare for Avila-James sentencing hearing.

PARTIES TO THE PROCEEDINGS
IN THE COURT BELOW
In addition to the parties named in the caption of the case, the following
individuals were parties to the case in the Unite States Court of Appeals for the
Fifth Circuit and the United States District, Western District of Texas.
None of the parties is a company, corporation, or subsidiary of any company or
corporation.

in

TABLE OF CONTENTS
Questions Presented for Review

11

List of Parties to the Proceedings in the Courts Below

in

Table of Contents

IV

Table of Authorities

vi

Opinions Below

2

Statement of Jurisdiction

2

Constitutional Provisions, Treaties, Statutes, Rules, and
Regulations Involved.....................................................

2

Statement of the Case

4

Reasons for Granting the Writ

7

Should a writ of certiorari be granted since the Fifth Circuit’s decision in
not remanding to the lower court was contrary to precedent of this court
which required an evidentiary hearing according to Title 28 U.S.C. § 2255 .

8

Should a writ of certiorari be granted to determine if an audio recording that
is not part of the court file from a District Court’s Magistrate hearing
suffice to support this court’s standard in Strickland v. Washington, 466
U.S. 668 (1984) or is more needed on the record..........................................

13

Does an attorney’s lies to the court during change of plea hearing, that are
not part of the court file, per-se, be relied upon by to support a Strickland
v. Washington, 466 U.S. 668 (1984) decision or is more needed on the
record ............................................................................................................

14

In light of this Court’s decision in Andrus v. Texas, 140 S. Ct. 1875 (2020),
did counsel fail to prepare for Avila-James sentencing hearing....................

18

IV

Conclusion

21

United States v. Avila-Jaimes, 801 F. App'x 301 (5th Cir. 2020)

A-l

Avila-Jaimes v. United States, No. A-18-CV-437-SS, 2018 U.S. Dist.
LEXIS 169978 (W.D. Tex. Sep. 28, 2018).........................................

A-2

v

TABLE OF AUTHORITIES
Cases
Andrus v. Texas, 140 S. Ct. 1875

19

Avila-Jaimes v. United States, No. A-18-CV-437-SS, 2018
Blackledge v. Allison, 431 U.S. 63, 97 S. Ct. 1621 (1977)

2
6, 14

Cullen v. Pinholster, 563 U.S. 170 (2011)

20

Harrington v. Richter, 562 U.S. 86 (2011)

20

Johnson v. Zerbst, 58 S. Ct. 1019 (1938)

9

Miller v. Johnson, 200 F.3d 274 (5th Cir. 2000)

21

Miller-El v. Cockrell, 123 S. Ct. 1029 (2003)

12

Missouri v. Frye, 566 U.S. 134 (2012)

20

Smith v. O'Grady, 312 U.S. 329 (1941)

9, 10, 12

Sorto v. Davis, 672 F. App'x 342 (5th Cir. 2016)
Strickland v. Washington, 466 U.S. 668 (1984)
Swisher v. True, 325 F.3d 225 (4th Cir. 2003)

21
14, 15,20
13

United States v. Avila-Jaimes, 681 F. App'x 373 (5th Cir. 2017)

5

United States v. Avila-Jaimes, 801 F. App'x 301 (5th Cir. 2020)

2

United States v. Higdon, 832 F.2d 312 (5th Cir. 1987)

5

United States v. Isgar, 739 F.3d 829 (5th Cir. 2014)

5

United States v. Stewart, 207 F.3d 750 (5th Cir. 2000)

vi

20

Valerio v Dir. of the Dep't of Prisons, 306 F3d 742 (9th Cir. 2002)

13

Regulations
21 U.S.C. § 841(a)(1)

4

21 U.S.C. § 846

4

28 U.S.C. § 1254(1)

2,3

28 U.S.C. § 1654(a)

2

28 U.S.C. § 2255

passim

Rules
Fed. R. Crim. P. 11(c)(1)(C)

4

Supreme Court Rule 10

7

Supreme Court Rule 10.1(a)

7

Other Authorities
U.S.S.G §3Bl.l(a)

5

Vll

No:

In the
Supreme Court of the United States
OSCAR ARMANDO AVILA-JAIMES,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Oscar Armando Avila-Jaimes, the Petitioner herein, respectfully prays that a
writ of certiorari is issued to review the judgment of the United States Court of
Appeals for the Fifth Circuit, entered in the above-entitled cause.

OPINION BELOW
The opinion of the Court of Appeals for the Fifth Circuit, whose judgment is
herein sought to be reviewed, is an unpublished decision entered on April 14,
2020, in United States v. Avila-Jaimes, 801 F. App'x 301 (5th Cir. 2020) and is
reprinted in the separate Appendix A to this Petition.
The denial of Petitioner’s Title 28 U.S.C. § 2255 in the Western District of
Texas, under Avila-Jaimes v. United States, 2018 U.S. Dist. LEXIS 169978 (W.D.
Tex. Sep. 28, 2018) was entered on October 2, 2018, and is reprinted as Appendix
B to this Petition.
STATEMENT OF JURISDICTION
The Judgment of the Court of Appeals was entered on April 14, 2020.
The Jurisdiction of this Court is invoked under Title 28 U.S.C. Section 1654(a)
and 28 U.S.C. Section 1254(1).
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES AND RULES INVOLVED
The Fifth Amendment to the Constitution of the United States provides in
relevant part:
No person shall be held to answer for a capital, or otherwise, infamous
crime, unless on a presentment or indictment of a Grand Jury... nor shall
any person be subject for the same offense to be twice put in jeopardy of
life or limb, nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due
process of law.

2

Id. Fifth Amendment U.S. Constitution
The Sixth Amendment to the Constitution of the United States provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and District wherein the
crime shall have been committed, which District shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation, to be confronted with the witness against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
Id. Sixth Amendment U.S. Constitution
Title 28 U.S.C. § 2255 provides in pertinent part:
A prisoner in custody under sentence of a court established by Act of
Congress claiming the right to be released upon the ground that the
sentence was imposed in violation of the Constitution or laws of the
United States, or that the court was without jurisdiction to impose such
sentence, or that the sentence was in excess of the maximum authorized by
law, or is otherwise subject to collateral attack, may move the court which
imposed the sentence to vacate, set aside or correct the sentence.
jjc % % sjc

Unless the motion and the files and records of the case conclusively show
that the prisoner is entitled to no relief, the court shall cause notice thereof
to be served upon the United States attorney, grant a prompt hearing
thereon, determine the issues and make findings of fact and conclusions of
law with respect thereto.
Id. Title 28 U.S.C. § 2255

3

STATEMENT OF THE CASE
On October 7, 2014, Avila-Jaimes was charged in a multi-count indictment out
of the Western District of Texas - Austin Division with conspiracy to possess with
intent to distribute cocaine, in violation of 21 U.S.C. § 846 and possession with
intent to distribute cocaine, in violation of 21 U.S.C. §§ 841(a)(1) and (b)(1)(C).
On March 4, 2015, Avila-Jaimes unknowingly, pled guilty to Counts One and Two
of a Superseding Information. Among other provisions, Avila-Jaimes’s plea
agreement contained a waiver of his right to appeal; an agreement not to file a
collateral attack on his conviction or sentence, except for claims of ineffective
assistance of counsel or prosecutorial misconduct; and an agreement under Fed. R.
Crim. P. 11(c)(1)(C) that his prison sentence would not exceed 240 months for
both counts. The Court accepted Avila-Jaimes’ guilty plea on March 4, 2015.
(Doc. 471-479).1 On June 2, 2015, the United States Probation Officer issued the
Initial Presentence Report (“PSI”). The PSI calculated a total offense level of 38,
and a criminal history category of I, for a Guideline range of imprisonment of 235
293 months. Avila-Jaimes submitted objections to the Presentence Report’s
determination on the base offense level and the role of a leader/organizer in the
offense. On June 2, 2015, the Probation Department issued an addendum to the

United States v. Aviles-Jaimes, No. A-14-CR-300-SS-1, USDC WDTX.

4

Presentence Report, summarizing and responding to the objections. Before
sentencing on June 8, 2015, Avila-Jaimes’s counsel filed a motion to withdraw.
(Doc. 647). The motion was denied on June 9, 2015. (Doc. 660). At sentencing on
June 11, 2015, the Court addressed the evidence, overruled the objections, and
sentenced Avila-Jaimes to concurrent terms of 240 months imprisonment for
Count 1, and 120 months imprisonment for Count 2.
An appeal ensued addressing the conviction and sentence, including the
validity of his guilty plea and appeal waiver, ineffective assistance of counsel, and
the four-point enhancement imposed by the district court under U.S.S.G §3B1.1(a).
This court affirmed. United States v. Avila-Jaimes, 681 F. App'x 373 (5th Cir.
2017). 2 On May 24, 2018, Avila-Jaimes through counsel, filed his 28 U.S.C. §
2255 motion to vacate sentence. (Doc. 978). The motion asserted several
plausible avenues for relief, along with supporting affidavits’ and exhibits.

2 The issue of ineffective assistance of counsel was not addressed on appeal as the
Fifth Circuit determined the matter to be premature:
“An ineffective assistance of counsel claim cannot be litigated on direct appeal
unless it was previously presented to the district court. United States v. Isgar,
739 F.3d 829, 841 (5th Cir. 2014). This court considers such claims only in
"rare cases in which the record allows a reviewing court to fairly evaluate the
merits of the claim." Id. (internal quotations and citation omitted). The record
here is too undeveloped to permit review of counsel's performance. AvilaJaimes's ineffective assistance of counsel claim is therefore denied without
prejudice to collateral review. United States v. Higdon, 832 F.2d 312, 314 (5th
Cir. 1987).” Id. . Avila-Jaimes, 681 F. App'x at 377.
5

Specifically, Avila-Jaimes alleged that he received ineffective assistance of
counsel because trial counsel did not “adequately apprise [him] as to the effects of
his guilty plea” (Doc. 978, at 4) and that his sentence violated the Eighth
Amendment because it is disproportionate to both his crime and his codefendants'
sentences. (Doc. 978 at 4-5). A request for an evidentiary hearing was also
requested. (Doc. 978 at 13). The Government responded alleging that counsel was
not ineffective since Avila-Jaimes could not show that counsel’s performance was
deficient and that Avila-Jaimes understood his waiver of the constitutional rights,
alleging that under Blackledge v. Allison, 431 U.S. 63, 97 S. Ct. 1621 (1977),
“substantial deference should be given to statements on the record.” (Doc. 984, at
8).
1. Court recordings establish other facts.
A troubling review of the “recordings” from the change of plea hearing, shows
otherwise. Regarding the Eighth Amendment argument, the government argued
the same had been waived as per the terms of the plea agreement. (Doc. 984, at
12). After Avila-Jaimes filed his reply, (Doc. 987), the District Court denied the §
2255 without the benefit of an evidentiary hearing. (Doc. 987). Thereafter the
Fifth Circuit denied the request for a certificate of appealability.

6

REASONS FOR GRANTING THE WRIT
THIS COURT SHOULD ISSUE A WRIT OF CERTIORARI BECAUSE
THE UNITED STATES COURT OF APPEALS FOR THE FIFTH
CIRCUIT AND THE DISTRICT COURT HAVE DECIDED A FEDERAL
QUESTION IN A WAY THAT CONFLICTS WITH APPLICABLE
DECISIONS OF THIS COURT
Supreme Court Rule 10 provides in relevant part as follows:
Rule 10
CONSIDERATIONS GOVERNING REVIEW
ON WRIT OF CERTIORARI
(1) A review on writ of certiorari is not a matter of right, but of judicial
discretion. A petition for a writ of certiorari will be granted only when
there are special and important reasons therefore. The following, while
neither controlling nor fully measuring the Court’s discretion, indicate
the character of reasons that will be considered:
(a) When a United States court of appeals has rendered a decision
in conflict with the decision of another United States Court of
Appeals on the same matter; or has decided a federal question in
a way in conflict with a state court of last resort; or has so far
departed from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by a lower court, as
to call for an exercise of this Court’s power of supervision.
(b)When a ... United States court of appeals has decided an
important question of federal law which has not been, but should
be, settled by this Court, or has decided a federal question in a
way that conflicts with applicable decision of this Court. ...Id.
Id. Supreme Court Rule 10.1(a), (c)

7

QUESTIONS PRESENTED
1. A writ of certiorari be granted since the Fifth Circuit’s decision in not
remanding to the lower court was contrary to precedent of this court which
required an evidentiary hearing according to Title 28 U.S.C. § 2255.
The District Court denied Avila-Jaimes’s motion on the premise that he could
not “produce any evidence that his counsel or anyone else, advised or promised
him he could plead guilty and then contest his factual guilt.” (Doc. at 987 at 6).
The record establishes otherwise. After a colloquy with the Assistant U.S.
Attorney, enumerating the two charges to which Avila-Jaimes would be pleading
to, Avila-Jaimes, interjected as making it clear that his Mr. Martinez had not fully
informed him of the nature and consequences of his plea and had misinformed the
Court regarding whether he understood the rights he was waiving:
The Court: All right. And then, in the 300 case, Mr. Avila-Jaimes is pleading
to two charges.
Mr. Guess: Yes, your Honor.
The Court: In the superseding information.
Mr. Guess: That is correct.
The Court: All right. And those charges are possession with intent to
distribute cocaine.
Mr. Guess: And money laundering.
The Court: And money laundering.
Mr. Gonzalez: He had a question, your Honor.

8

The Court: Okay. Mr. Avila.
Defendant Avila: Yeah. I don't know why I'm being charged with drugs and
one for money laundering.
The Court: That you should probably talk to your attorney about.
Mr. Martinez: Okay. I think we do need to talk, Judge.
Id. (Doc. 980-6, at 13).
The statements show that at the change of plea hearing, Avila-Jaimes was not
aware of the repercussions of his decision to plead guilty. This argument, within
itself, required an evidentiary hearing to address what Avila-Jaimes understood at
that stage. A plea may be involuntary either because the accused does not
understand the nature of the constitutional protections he is waiving, see, e.g.,
Johnson v. Zerbst, 58 S. Ct. 1019, 1023 (1938), or because he has such an
incomplete understanding of the charges that his plea cannot stand as an intelligent
admission of guilt without adequate notice of the nature of the charge against him,
or proof that he understood the charges, the guilty plea cannot be voluntary in the
latter sense. Smith v. O’Grady, 312 U.S. 329 (1941). Neither was the issue
resolved by the court’s short recess to allow Avila-Jaimes an opportunity to discuss
the matter with counsel. The Court allowed Avila-Jaimes and counsel an
opportunity to “talk over” the change of plea procedures, however, no solid
confirmation on Avila-Jaimes’s behalf could be reached. The record is clear that
Avila-Jaimes did not grasp the understanding of the proceedings before the court:
9

The Court: Mr. Martinez, let me interrupt for a moment.
Mr. Martinez: Pardon me, Judge. Yes.
The Court: Do you think you’ll need to talk to him a while longer?
Mr. Martinez: Probably just a minute or two more. I think we’re kind of
getting to the crux.
Id. (Doc. 980-6, at 16-17).
Even after the confusion on Avila-Jaimes’ ability to understands the
importance of his waiver, did the Court revisit the matter, it only assumed that the
issue was resolved, although the record established to the contrary. When the
Court reviewed the specifics of the charges and events to which Avila-Jaimes was
pleading guilty, it once again became clear that he did not fully understand the
proceedings. After reviewing the details of Counts 1 and 2 of the superseding
information, Avila-Jaimes stated that he was pleading guilty, “but that [it] needs to
be clear that I’m accepting but I have right to fight for against what I’m charged
with. (Doc. 980-6, at 37). When the court reviewed the waivers of Avila-Jaimes
plea, the clearness of his misunderstanding was further emphasized:
The Court: And then, finally, Mr. Avila, you've seemed a little hesitant here.
And you did take a break during the proceeding to talk further with your
attorney. It's an important decision to plead guilty. And so, I want to make
sure that you're comfortable with your decision and that you're making your
decision to plead guilty freely and this is what you want to do.

10

Defendant Avila: Yes. Like I said before, I have signed the agreement
because it includes a clause where I have a right to contest those things.
Id. (Doc. 980-6, at 42).
The unfamiliarity with the English language and the translator’s improper
translations caused Avila-Jaimes to provide an unintelligent plea. These facts
required an evidentiary hearing and now require a writ of certiorari. The fact that
no hearing was granted, warrants the granting of a COA as the preliminary inquiry
into the matter. This Court's opinion in Miller-El made clear that whether to grant
a COA is intended to be a preliminary inquiry, undertaken before full consideration
of the petitioner's claims. Miller-El v. Cockrell, 123 S. Ct. 1029, 1039 (2003)
(noting that the "threshold [COA] inquiry does not require full consideration of the
factual or legal bases adduced in support of the claims"); Id. at 1040 (noting that "a
claim can be debatable even though every jurist of reason might agree after the
COA has been granted and the case has received full consideration, that petitioner
will not prevail") (emphasis added); Id. at 1042 (noting that "a COA determination
is a separate proceeding, one distinct from the underlying merits"); Id. at 1046-47
(Scalia, J., concurring) (noting that it is erroneous for a court of appeals to deny a
COA only after consideration of the applicant's entitlement to habeas relief on the
merits). Indeed, such as "full consideration" in the course of the COA inquiry is
forbidden by § 2253(c). Id. at 1039 ("When a court of appeals sidesteps [the COA]
process by first deciding the merits of an appeal, and then justifying its denial of a
11

COA based on its adjudication of the actual merits, it is, in essence, deciding an
appeal without jurisdiction."). Swisher v. True, 325 F.3d 225, 229-30 (4th Cir.
2003). Here this Court must only agree that based on the record, Avila-Jaimes was
entitled to have the case proceed further, not that he will be victorious on the
merits of his claim. Even if the District Court has denied all the claims without an
evidentiary, (an error in this case) the Fifth Court had the authority to grant the
relief and expand upon it. Valerio v Dir. of the Dep't of Prisons, 306 F3d 742 (9th
Cir. 2002), cert, denied (2003) 538 US 994, 155 L Ed 2d 695, 123 S Ct 1788)
(court of appeals not only has the power to grant COA where a district court has
denied it as to all issues but also to expand COA to include additional issues when
a district court has granted COA as to some but not all issues.) This is especially
beneficial to Avila-Jaimes since the recordings from the change of plea hearing,
show supporting evidence to his claim that was not been addressed by the District
Court.

12

2. A writ of certiorari should be granted to determine if an audio
recording that is not part of the court file from a District Court’s
Magistrate hearing suffice to support this court’s standard in Strickland
v. Washington, 466 U.S. 668 (1984) or is more needed on the record.
Recordings of the change of plea hearings taken before Magistrate Judges is
normal protocol. Avila-Jaimes’s contemporaneous Spanish statements to the Court
and instructions to his attorney, will reach the same conclusion: Either AvilaJaimes did not understand the terms and consequences of the plea, or, more
ominously, counsel purposefully misled him as to the terms of the plea agreement.
In any event, the "knowingly" requirement of voluntariness stipulated by this Court
in Blackledge, 431 U.S. 63, 97 S. Ct. 1621 was never met. Avila-Jaimes was
misled into self-incriminating himself. On five different occasions, as recent as
minute 10 and as late as minute 47 of a 49 minute hearing, Avila-Jaimes repeatedly
made it clear he never accepted guilt and that he is only entering into the plea
agreement because he had been guaranteed by counsel that he has reserved the
right to challenge the charges in their entirety. The recording of his
contemporaneous comments to counsel shows this amply clear. Moreover, when
Avila-Jaimes is finally cross-examined by the Magistrate Judge, he only does so
after consulting with counsel and having counsel tell him to say he is “guilty”
(counsel's coaching is audible) and proceeding further, reassuring him that his plea
("no te va a afectar") will not affect you. Counsel amplifies the scope of his
deception by not only preempting the court interpreter on repeated occasions to
13

make sure that it is his version of the plea will appear on the record but by blatantly
misinterpreting/lying to the court regarding the content of a key exchange with
Avila-Jaimes. Counsel maliciously exploited the language limitations of both his
client and the court in this regard. One can only surmise that to force the spurious
plea to become the controlling part of the record. This claim warrants a writ of
certiorari and a remand.
3. Does an attorney’s lies to the court during change of plea hearing, that
are not part of the court file,per-se, be relied upon by to support a
Strickland v. Washington, 466 U.S. 668 (1984) decision or is more needed
on the record.
The exchange arises out of the government's recitation of the terms of the plea,
which clearly contradicted what counsel purported the plea to include. AvilaJaimes instructs counsel to clarify to the court that he is reserving his right to
challenge the charges so that it will become part of the record. Its obvious AvilaJaimes did not understand the nature nor consequences of a plea agreement he was
led into signing. The change of plea recording clarifies he was expressly lied to as
to the rights that were being preserved. Even during the 10-minute break, counsel
continued to tell Avila that what he was being asked to plead to was a mere
formality that would not affect his right to challenge the specific charges of money
laundering and drug conspiracy.

14

The following colloquy occurred at the change of plea:
Original Recording

Translated Version

COP CD at 19:49: Avila-Jaimes “but they did not speak in any of the
to Counsel: "... pero no hablaron statement that we have the right to
en ninguna, en la declaracion de fight everything”
eso que tenemos derecho a
pelear todo.
COP CD at 19:49: Avila-Jaimes “but they did not speak in any of the
to Counsel: "... pero no hablaron statement that we have the right to
en ninguna, en la declaracion de fight everything”
eso que tenemos derecho a
pelear todo.
Change of plea CD at 19:54:
Avila-Jaimes to Counsel: “...
dijo (el fiscal) que no tengo
derecho a pelearlo"

“... the prosecutor said that I have no
right to fight.”

Counsel would respond to the court under the guise that Avila-Jaimes concerns
are being addressed.
Counsel to Court: "Your Honor there was another part to that agreement which
basically we reserve the right to contest 'certain issues as to relevant conduct,
certain facts, we agree that the government believes that they can prove beyond
a reasonable doubt that..." 3
Avila does not and was not alluding at any time during the hearing and in his
comments to counsel to the right to "contest certain issues as to relevant conduct"
he is referring at all times, unequivocally, as represented to him by counsel, to the

3 Change of plea CD at 19:57.
15

right to "fight the (actual) charges" He makes it clear on five (5) separate
occasions that this is not only his understanding but the only reason why he agreed
to the plea deal. So much so, that he goes on to make it clear on two additional
occasions that the only reason why he was willing to enter into the plea deal to
begin with was that he was allowed to preserve his right to challenge the charges.
A conclusion that could never have been reached were it not for Counsel's
mistranslations of Avila's statements.
a. The Change of Plea Recording Shows Avila was misled
Avila-Jaimes makes it clear to counsel and less than 15 seconds later to the
Magistrate Judge, that he does not understand why he is being charged with those
two crimes since he is neither guilty of them nor accepting that he committed them.
Avila-Jaimes lacked the requisite understanding even if we were to assume that
counsel had at no time actively misled him:
COP CD at 10:43 Avila to
Counsel (as AUSA finishes
describing Avila charges):
"Porque dicen de lavado de
dinero si yo no he aceptado
nada de eso."

Why do they say money laundering if I
have not accepted any of that.”

COP CD at 10:56 Avila to
Magistrate: "... no se por que
me estan acusando de drogas y
de lavado de dinero? y en el...”

“I do not know why you are accusing
me of drugs and money laundering?
and in that one. "

COP CD at 11:11 Avila to
Counsel: "Usted me dijo que
16

luego, o sea, que se iba a pelear
todo, porque yo nunca he
aceptado nada de que yo
he.."

"You told me later, that is, that you
were going to fight everything, because
I have never accepted anything that I
have...”4

He makes it unequivocally clear to both Counsel and Magistrate that he is not
guilty and was entering the plea deal because he had been guaranteed that he
would reserve the right to fight any charges. None of these statements were
addressed by the District Court before rendering a decision on the § 2255.
b. Avila-Jaimes enters a plea under the assurance he could
challenge all the charges against him.
Eventually, assured that he can challenge all the aspects of the charges against
him, Avila-Jaimes entered his unknowing plea of guilt:
COP CD at 41:13 Avila-Jaimes
to Magistrate: "Es culpable pero
que quede, bueno que quede
claro que yo estoy aceptando
porque tengo derecho a pelear
lo que se me esta acusando..."

“It is guilty but that it remains, well
that it is clear that I am accepting
because I have the right to fight what
I'm being accused ..."

COP CD at 42:27 Counsel to
Avila-Jaimes: "si esta bien
porque...eso no te va a afectar"5

“Yes its Fine because it will not affect
you"

COP CD at 42:37 Counsel to
Interpreter: "si senor”

“Yes Sir ....” Counsel answering to
inteterpreter that Avila-Jaimes is
pleading guilty.

4 Avila-Jaimes is cut off by counsel speaking with Magistrate Judge.
5 tt

Yes its Fine becuase it will not affect you"

17

COP CD at 42:45 Avila to
Counsel: "(contesto que) si?"

“(what do I answer), yes?”

COP CD at 42:46 Counsel to
Avila: "si".

“yes”

COP CD at 43:06 Magistrate to
Avila et al: "...and are you
pleading guilty to the charges
against you because you are
guilty and no other reason?
COP CD at 43:14 Avila-Jaimes
to Counsel: "(digo que) si?"

“(what do I answer), yes?”

The record as it clearly stands in Avila-Jaimes native language; he never
accepted responsibility for the charged offense since trial counsel misleads him on
the ability to challenge the charges.
4 In light of this Court’s decision in Andrus v. Texas, 140 S. Ct. 1875
(2020), did counsel fail to prepare for Avila-Jaimes sentencing hearing.
In Andrus, this court held that counsel must make reasonable investigations or
to make a reasonable decision that makes particular investigations unnecessary.
See, Andrus v. Texas, 140 S. Ct. 1875 (2020). Here the sentencing, as with the
plea, was a joint session with numerous co-defendants. A total of sixteen (16) co­
defendants were sentenced simultaneously. The Government presented the
testimony of DEA Agent Nick Rich who determined that Avila-Jaimes was the
“man in charge” based on Title III wiretaps and on his interpretation of the calls,
not on substance evidence. There was no “substantive evidence” presented during

18

the sentencing hearing. The allegations of ineffectiveness were substantial and
lack of preparation was evident. This court noted in Andrus that to prevail on
ineffective assistance of counsel claims, a defendant must show that (1) counsel's
performance fell below an objective standard of reasonableness and (2) there is a
reasonable probability that, but for counsel's unprofessional errors, the result of the
proceedings would have been different. Strickland v. Washington, 466 U.S. 668,
687, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984); see also Missouri v. Frye, 566 U.S.
134, 147, 132 S. Ct. 1399, 182 L. Ed. 2d 379 (2012). "[A] court need not determine
whether counsel's performance was deficient before examining the prejudice
suffered by the defendant as a result of the alleged deficiencies." Strickland, 466
U.S. at 697; see also United States v. Stewart, 207 F.3d 750, 751 (5th Cir. 2000).
"The likelihood of a different result must be substantial, not just conceivable,"
Harrington v. Richter, 562 U.S. 86, 112, 131 S. Ct. 770, 178 L. Ed. 2d 624 (2011),
and movant must prove that counsel's errors "so undermined the proper functioning
of the adversarial process that the trial cannot be relied on as having produced a
just result." Cullen v. Pinholster, 563 U.S. 170, 189, 131 S. Ct. 1388, 179 L. Ed. 2d
557 (2011) (quoting Strickland). Judicial scrutiny of this type of claim must be
highly deferential and Avila-Jaimes must overcome a strong presumption that his
counsel's conduct falls within the wide range of reasonable professional assistance.
Strickland, 466 U.S. at 689. Simply making conclusory allegations of deficient

19

performance and prejudice is not sufficient to meet the Strickland test. Miller v.
Johnson, 200 F.3d 274, 282 (5th Cir. 2000); Melanson v. United States, 2019 U.S.
Dist. LEXIS 61522, at *5-6 (N.D. Tex. Apr. 10, 2019). Avila-Jaimes’ § 2255
alleged clear, distinct facts that were supported by the record and recordings, of the
case. The pleadings included affidavits, exhibits, and references to the record to
show the Avila-Jaimes received ineffective assistance.
As presented by the Court in Sorto v. Davis, 672 F. App'x 342, 346 (5th Cir.
2016) (reasonable jurists could debate whether (or, for that matter, agree that) the
petition should have been resolved in a different manner or that the issues
presented were 'adequate to deserve encouragement to proceed further.’”) The
original § 2255 petition and all the exhibits support and encourage the matter to
proceed further.

20

CONCLUSION
Based on the foregoing, this Court should grant this request for a Writ of
Certiorari and order the Court of Appeals for the Fifth Circuit.
Done this

\ [ , day of July 2020

Oscar Armando Avila-Jaimes
Register Number # 44428-380
FCI Loretto
P.O. Box 1000
Cresson, PA 15940

21

